hc?rc/
IN THE SUPREME COURT OF THE STATE OF NEVADA
WES JOSEPH PERTGEN,
Appellant,
vs.
WILLIAM A. GITTERE, WARDEN,
Respondent.

No. 81409

JUN 2 2 2021
ELIZABETH A. BROWN
CLERK OF SUPREME COURT

BY__ .S .Vf\Ji i s\/\ f
DEPUTY CLERK

ORDER DENYING PETITION FOR REVIEW
Review denied. NRAP 40B.
It is so ORDERED.

C.J.

c

Hardesty

, J.

, J.

Parraguirre

Stiglich

j.

Cadish

Pickering

cc:

Silver

j

J.
Herndon

Hon. Gary Fairman, District Judge
Wes Joseph Pertgen
Attorney General/Carson City
Attorney General/Ely
White Pine County Clerk

Supreme Court
of

Nevada
(O) 1947A

Vlf

J J.

1r

*

IN THE COURT OF APPEALS OF THE STATE OF NEVADA

No. 81409-COA

WES JOSEPH PERTGEN,
Appellant,
vs.
WILLIAM A. GITTERE, WARDEN,
Respondent.

w

APR 2 3 2021
ELIZABETH A. BROWN
CLERK OF SUPREME COURT
by__
DEPUTY CLERK 0

ORDER OF AFFIRMANCE
■;:T

Wes Joseph Pertgen appeals from an order of the district court
. -*•

denying a postconviction petition for a writ of habeas corpus challenging
......

prison disciplinary proceedings.

Seventh Judicial District Court, White

Pine County; Gary Fairman, Judge.

~

In his petition, filed on July 8, 2019, Pertgen claimed the
disciplinary proceedings, which resulted in his forfeiture of 30 days of
statutory good time credits, violated his due process rights. When a prison
disciplinary hearing results in the loss of statutory good time credits, the
United States Supreme Court has held that minimal due process rights
entitle a prisoner to (1) advance written notice of the charges, (2) a qualified
opportunity to call witnesses and present evidence, and (3) a written
statement by the fact finders of the evidence relied upon.

Wolff v.

McDonnell, 418 U.S. 539, 563-69 (1974). In addition, some evidence must
support the disciplinary hearing officer’s decision. Superintendent v. Hill,
472 U.S. 445, 455 (1985). In reviewing a claim based on insufficiency of the
evidence, this court must determine whether there is any evidence in the
record to support the disciplinary hearing officer’s conclusion. Id. at 45556.
Court

of

Appeals

of

Nevada
(O) 1947B

£i-m si

First, Pertgen claimed the service of various documents and
hearings were delayed. There is no cause of action for instances where
regulatory time requirements are not met. See AR 707.1(1)(C); Sandin v.
Conner, 515 U.S. 472, 481-82 (1995) (disapproving cases that focused on
regulations’ mandatory language in determining whether due process
rights were implicated). We therefore conclude the district court did not err
by denying this claim.
Second, Pertgen claimed he was not allowed to call witnesses.
Pertgen requested and was denied the opportunity to call two inmates as
witnesses.1 Pertgen has not alleged facts that demonstrate this curtailed
any right of his. See Wolff, 418 U.S. at 566 (“Prison officials must have the
necessary discretion ... to limit access to other inmates. ). Pertgen s claim
that he requested the opportunity to call NDOC’s charging employee as a
witness is not supported by the record before this court,

And while a

charging employee must be permitted to testify at the disciplinary hearing,
AR 707.1(3)(C)(10)(d), Pertgen did not have a right to cross-examine the
employee, see AR 707.1(3)(C)(10)(g); Wolff, 418 U.S. at 567-68 (discussing
confrontation and cross-examination rights and concluding they are not
generally required in the context of prison disciplinary proceedings).
Because Pertgen did not have the right to confront or cross-examine the
inmates and charging employee, we conclude the district court did not err
by denying this claim.
Third, Pertgen claimed he was not allowed to see or examine
any investigation or incident report. Inmates due process rights do not
extend to examining anything beyond the notice of charges.

Moreover,

iThe Nevada Department of Corrections (NDOC) denied the request
because the inmates were considered victims.
Court of Appeals
Nevada

2

(O) 1947B cgjpfep
o

Pertgen merely speculated that additional reports must exist. We therefore
conclude the district court did not err by denying this claim.
Fourth, Pertgen claimed the notice of charges was insufficient
because it did not list every injury the victim received.. He also speculated
that the percipient witness may have suffered self-inflicted injuries, and he
com plained that the notice of charges failed to include this information. The
notice of charges must merely apprise the inmate of the charges to enable
him to marshal the facts and prepare a defense.” Wolff, 418 U.S. at 564.
Nothing requires it to contain every detail of the alleged violation. Here,
the notice of charges apprised Pertgen he was charged with MJ3 (battery),
the specific allegations of the inmate-victim of Pertgen’s attack, and the
search for the stabbing weapon used in the attack. The notice of charges
met the requirements for due process, and we therefore conclude the district
court did not err by denying this claim.
Fifth, Pertgen claimed the recitation of the evidence used to
support the disciplinary conviction was inadequate and insufficient. The
summary of disciplinary hearing stated that the evidence relied on was
contained in the notice of charges, which in turn detailed Pertgen’s attack
on the victim. This satisfied the requirement that ‘‘some evidence” support
the discinlinary hearing committees decision. We therefore conclude tne
district court did not err by denying this claim.
Sixth, Pertgen claimed the disciplinary hearing committee
discussed his prior disciplinary proceedings and .improperly used them
against him. Pertgen has not demonstrated that any discussion about his
prior disciplinary proceedings was improper. Moreover, the summary of
disciplinary hearing indicates that the disciplinary hearing committee

Court of Appeals
Nevada
(O) 1947B

3

relied only on the notice of charges in finding Pertgen guilty. We therefore
conclude the district court did not err by denying this claim.

J

Pertgen also claimed the disciplinary hearing violated the
Double Jeopardy Clause because the hearing had to be paused after 30
minutes and restarted when it was discovered that the recording equipment
was not recording. “The Double Jeopardy Clause protects against three
abuses: (1) a second prosecution for the same offense after acquittal, (2) a
second prosecution for the same offense after conviction, and (3) multiple
punishments for the same offense.” Jackson v. State, 128 Nev. 598, 604,
291 P.3d 1274, 1278 (2012).

Pertgen failed to allege facts that would

implicate the Double Jeopardy Clause. We therefore conclude the district
court did not err by denying this claim.
On appeal, Pertgen argues the district court erred by denying
his petition without conducting an evidentiary hearing. As indicated in the
discussions above, Pertgen failed to allege specific facts that are not belied
by the record and, if true, would entitle him to relief. See Hargrove v. State,
100 Nev. 498, 502-03, 686 P.2d 222, 225 (1984). We therefore conclude the
district court did not err by denying Pertgen’s petition without conducting
an evidentiary hearing.
Pertgen also argues he was denied the opportunity to
adequately present and argue his postconviction petition, he was not given
a copy of the State’s proposed order, and he did not receive a file-stamped
copy of his proposed order granting relief. Pertgen does not indicate what
additional argument he would have presented to the district court, what
objections he would have made to the State’s proposed order, or why he
needed a file-stamped copy of his proposed order. Accordingly, even if these
claims constituted error, he failed to demonstrate they affected his

Court of Appeals
of

Nevada
(O) 19478

m&

4
CHIT

*■

*

substantial rights. See NRS 178.598 (“Any error, defect, irregularity or
variance which does not affect substantial rights shall be disregarded.”).
We therefore conclude Pertgen is not entitled to relief based on these claims.
Finally, Pertgen argues the district court erred by not ruling on
his objection to fabrication of the audio tape of the disciplinary hearing.
Pertgen neither sought nor was granted permission to file this document.
Accordingly, it was not properly before the district court, see NRS 34.750(5),
and we conclude the district court did not err by declining to consider the
pleading.
Having concluded Pertgen is not entitled to relief, we
ORDER the judgment of the district court AFFIRMED.

,

C.J.

Gibbons

\tt^.

J.

Tao

,
Bulla

cc:

Court

of

Hon. Gary Fairman, District Judge
Wes Joseph Pertgen
Attorney General/Carson City
Attorney General/Ely
White Pine County Clerk

Appeals

of

5

Nevada
(O) 1947B

W7

J<

